<html>
<title> - AFGHANISTAN AND PAKISTAN: UNDERSTANDING A COMPLEX THREAT ENVIRONMENT</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
  AFGHANISTAN AND PAKISTAN: UNDERSTANDING A COMPLEX THREAT ENVIRONMENT

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY
                          AND FOREIGN AFFAIRS

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 4, 2009

                               __________

                           Serial No. 111-161

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform



                  U.S. GOVERNMENT PRINTING OFFICE
71-613                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="88eff8e7c8ebfdfbfce0ede4f8a6ebe7e5a6">[email&#160;protected]</a>  

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      DARRELL E. ISSA, California
CAROLYN B. MALONEY, New York         DAN BURTON, Indiana
ELIJAH E. CUMMINGS, Maryland         JOHN M. McHUGH, New York
DENNIS J. KUCINICH, Ohio             JOHN L. MICA, Florida
JOHN F. TIERNEY, Massachusetts       MARK E. SOUDER, Indiana
WM. LACY CLAY, Missouri              TODD RUSSELL PLATTS, Pennsylvania
DIANE E. WATSON, California          JOHN J. DUNCAN, Jr., Tennessee
STEPHEN F. LYNCH, Massachusetts      MICHAEL R. TURNER, Ohio
JIM COOPER, Tennessee                LYNN A. WESTMORELAND, Georgia
GERALD E. CONNOLLY, Virginia         PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   BRIAN P. BILBRAY, California
    Columbia                         JIM JORDAN, Ohio
PATRICK J. KENNEDY, Rhode Island     JEFF FLAKE, Arizona
DANNY K. DAVIS, Illinois             JEFF FORTENBERRY, Nebraska
CHRIS VAN HOLLEN, Maryland           JASON CHAFFETZ, Utah
HENRY CUELLAR, Texas                 AARON SCHOCK, Illinois
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
PETER WELCH, Vermont
BILL FOSTER, Illinois
JACKIE SPEIER, California
STEVE DRIEHAUS, Ohio
------ ------
------ ------
------ ------

                      Ron Stroman, Staff Director
                Michael McCarthy, Deputy Staff Director
                      Carla Hultberg, Chief Clerk
                  Larry Brady, Minority Staff Director

         Subcommittee on National Security and Foreign Affairs

                JOHN F. TIERNEY, Massachusetts, Chairman
CAROLYN B. MALONEY, New York         JEFF FLAKE, Arizona
PATRICK J. KENNEDY, Rhode Island     TODD RUSSELL PLATTS, Pennsylvania
CHRIS VAN HOLLEN, Maryland           DAN BURTON, Indiana
PAUL W. HODES, New Hampshire         JOHN L. MICA, Florida
CHRISTOPHER S. MURPHY, Connecticut   JOHN J. DUNCAN, Jr., Tennessee
PETER WELCH, Vermont                 MICHAEL R. TURNER, Ohio
BILL FOSTER, Illinois                LYNN A. WESTMORELAND, Georgia
STEVE DRIEHAUS, Ohio                 PATRICK T. McHENRY, North Carolina
STEPHEN F. LYNCH, Massachusetts      JIM JORDAN, Ohio
HENRY CUELLAR, Texas                 JEFF FORTENBERRY, Nebraska
DENNIS J. KUCINICH, Ohio
                     Andrew Wright, Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 4, 2009....................................     1
Statement of:
    Bergen, Peter, Schwartz senior fellow at New America 
      Foundation and author of the Osama Bin Laden I Know: An 
      Oral History of aL Qaeda's Leader (2006), as Well as Inside 
      the Secret World of Osama Bin Laden (2001); Joshua T. 
      White, research fellow at the Institute for Global 
      Engagement and Ph.D candidate at Johns Hopkins School for 
      Advanced International Studies; and Paul R. Pillar, Ph.D, 
      visiting professor and director of studies, Security 
      Studies Program at Georgetown University, and former 
      National Intelligence Officer for the Near East and Asia...     9
        Bergen, Peter............................................     9
        Pillar, Paul R...........................................    26
        White, Joshua T..........................................    25
Letters, statements, etc., submitted for the record by:
    Bergen, Peter, Schwartz senior fellow at New America 
      Foundation and author of the Osama Bin Laden I Know: An 
      Oral History of aL Qaeda's Leader (2006), as Well as Inside 
      the Secret World of Osama Bin Laden (2001), prepared 
      statement of...............................................    12
    Hodes, Hon. Paul W., a Representative in Congress from the 
      State of New Hampshire, prepared statement of..............    57
    Pillar, Paul R., Ph.D, visiting professor and director of 
      studies, Security Studies Program at Georgetown University, 
      and former National Intelligence Officer for the Near East 
      and Asia, prepared statement of............................    30
    Tierney, Hon. John F., a Representative in Congress from the 
      State of Massachusetts, prepared statement of..............     4


  AFGHANISTAN AND PAKISTAN: UNDERSTANDING A COMPLEX THREAT ENVIRONMENT

                              ----------                              


                        WEDNESDAY, MARCH 4, 2009

                  House of Representatives,
     Subcommittee on National Security and Foreign 
                                           Affairs,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:02 a.m., in 
room 2154, Rayburn House Office Building, Hon. John F. Tierney 
(chairman of the subcommittee) presiding.
    Present: Representatives Tierney, Van Hollen, Hodes, 
Murphy, Welch, Foster, Driehaus, Lynch, Cuellar, Flake, Platts, 
Burton, Mica, Duncan, Issa, McHenry, Jordan, and Fortenberry.
    Staff present: David Turk, staff director; Andrew Wright, 
counsel; Alexandra McKnight, fellow, Department of State; John 
Cuaderes, deputy staff director; Adam Fromm, chief clerk and 
Member liaison; Tom Alexander, senior counsel; Christopher 
Bright, senior professional staff member; and Glenn Sanders, 
Defense fellow.
    Mr. Tierney. Good morning. A quorum being present, the 
Subcommittee on National Security and Foreign Affairs hearing 
entitled ``Afghanistan and Pakistan: Understanding a Complex 
Threat Environment'' will come to order.
    I ask unanimous consent that only the chairman and the 
ranking member of the subcommittee be allowed to make opening 
statements. Without objection, so ordered.
    I ask unanimous consent that the hearing record be kept 
open for 5 business days so that all members of the 
subcommittee be allowed to submit a written statement for the 
record. Without objection, so ordered.
    At this time, I would like to make a brief opening 
statement and then allow Mr. Flake to do the same. First, let 
me welcome and thank our witnesses for their time and their 
perspective on this.
    Today, the National Security and Foreign Affairs 
Subcommittee holds our second hearing of this 111th Congress by 
continuing our sustained oversight on U.S. efforts in 
Afghanistan and Pakistan. As I noted at our first hearing, an 
overriding point a number of the subcommittee members took away 
from recent visits to Afghanistan and Pakistan last month, 
whether it was meeting with Presidents Karzai and Zardari, with 
our Ambassadors and General McKiernan, or with NGO's and other 
experts was that we are at a unique moment to ask fundamental 
questions about the U.S. efforts in both countries, Afghanistan 
and Pakistan.
    The headlines in our newspapers continually remind us of 
the security challenges we face in both countries. Violence is 
on the rise in Afghanistan with Coalition fatalities having 
increased in each of the last 5 years. Control of the country, 
or parts of it, are contested by the Taliban, political 
insurgents, warlords and drug traffickers. Pakistan continues 
to struggle with extremist insurgents throughout its west, as 
well as political flare-ups in Punjab that threaten to engulf 
the country in flames of instability. Increased Taliban 
strength in Afghanistan and Pakistan is fueled by safe havens, 
supply stores, and recruitment centers in Pakistan's federally 
administered tribal areas that we all take to calling FATA.
    Certain areas of the northwest frontier province in Swat 
Valley and western portions of Balochistan Province, with the 
Pan Jihadi support from networks developed in the struggle for 
Kashmir. In this swirling fog of combatants, agendas, 
ethnicities, borders and traffic, it is difficult for some 
policymakers and the public to discern the nature of the stakes 
involved and how the lines of conflict interrelate. Whether any 
or all of these elements constitute an imminent threat to the 
U.S. national interests, and, if so, what response is most 
appropriate are issues foremost on America's agenda at this 
moment in time as we decide what resources and at what cost 
might be brought to bear in the region and how.
    This hearing aims to step behind the headlines and allow 
subcommittee members and the public at large to hear from top 
independent experts about the threats faced in these countries. 
The goal here is to try to bring as much clarity as possible; 
in other words, to try to make some sense of the swirling fog. 
After all, before being able to answer the question of what we 
should do, we first need to have a solid foundation of 
knowledge about what we are dealing with.
    In Afghanistan, we must be able to distinguish between and 
identify the goals of the Afghan Taliban, the drug cartels and 
the various warlords. What is the relative threat, if any, of 
each to the U.S. national security interest and to the interest 
of others? It is important to determine any role player by al 
Qaeda in the Afghan insurgency and know who exactly is crossing 
the border from Pakistan to join the Afghan insurgency.
    In Pakistan we must understand just who the so-called 
Pakistani Taliban is, who makes up the insurgencies in 
Pakistan's federally administered tribal areas in the Swat 
Valley. We need information about whether parties are giving al 
Qaeda hospitality and protection and any threats posed by 
Lashkar-e-Taibe is essential, as is an understanding of how 
various groups in Afghanistan may interrelate and interact with 
the groups in Pakistan. We will have an opportunity today to 
explore the myriad interrelationships, as well as ideological, 
religious, and political agendas of these groups.
    Finally, in an overall effort to better understand the 
threats posed, we will assess the trends in these lines of 
conflict, including attack capacity, recruitment, and 
financing. Those of us serving also on the Intelligence 
Committee regularly receive threat assessments in a classified 
context. I would extend the offer to my colleagues that I will 
try to facilitate a classified briefing for the administration 
to supplement the testimony we receive here today. However, 
wherever possible, public policy calls for public dialog.
    With respect to the fundamental matters at the heart of our 
policies in Afghanistan and Pakistan, it is important that we 
offer our members and the public at large an opportunity to 
hear a public-source threat assessment from a panel of esteemed 
experts with hands-on experience in the region.
    As a candidate, President Obama stated that Afghanistan and 
Pakistan should be considered the central front on the war of 
terror. He has ordered into Afghanistan 17,000 additional brave 
American men and women. He has also commissioned a top-to-
bottom policy review. During this time of increasing peril in 
Afghanistan and Pakistan, a strategic review here in the United 
States, we seek to help frame the discussion with a deeper 
understanding of the threats faced in this troubled south Asian 
region. That is what today's hearing is all about.
    [The prepared statement of Hon. John F. Tierney follows:]

    [GRAPHIC] [TIFF OMITTED] T1613.001
    
    [GRAPHIC] [TIFF OMITTED] T1613.002
    
    [GRAPHIC] [TIFF OMITTED] T1613.023
    
    Mr. Tierney. And with that, I defer to my colleague, Mr. 
Flake.
    Mr. Flake. I thank the chairman for holding this hearing. I 
look forward to the witnesses. I will just make a couple of 
remarks. This hearing provides a great opportunity to see what 
some nongovernmental witnesses think of the threats that we 
face in Afghanistan and Pakistan. We all know that we have 
spent billions in Afghanistan since 2001. We have seen some 
progress; however, security has declined as the Taliban and 
other militant groups have reorganized. As a result, there were 
155 combat-related deaths, U.S. deaths in Afghanistan in 2008. 
This is the most since we have started operations in 2001.
    Clearly, we need to reassess our strategy. In Pakistan, we 
continue to spend a lot of money on Coalition support funding, 
but this effort has yielded limited success. I think it is also 
incumbent on us to see if the costs of this policy outweigh the 
benefits, where might we better spend that money, require more, 
require less. It needs to be reevaluated.
    Since taking office, President Obama has already shifted 
policy in Afghanistan. In February, on the 17th, he ordered 
17,000 additional troops be sent there. This will bring our 
total to about 55,000. That is for U.S. troops. That is the 
largest number we have ever seen deployed in that country, from 
the United States at least. After having ordered the troops 
into combat, however, the President will receive the results of 
a high-level review. It seems a little backward. We say all 
right, we are going to send 17,000 more and then we will 
conduct a top-to-bottom review to see how they might best be 
deployed, or if we need to deploy them, or if we should deploy 
more. We should have a clear policy.
    Where we have seen success in other areas--most notably in 
Iraq, it was after we had a clear, defined strategy and then 
had our troop levels match and had our policy match the 
strategy that we had outlined. And it seems to me that we are 
going a bit backward here. Notably absent from this hearing is 
a representative from the administration to describe where we 
are going, who the enemy is, in what ways do we need to 
reassess. It would seem that, again, this should be done before 
deployment of more troops rather than after. I realize that 
that review will be completed before most of those troops 
arrive in Afghanistan. But there is a lot of preparation that 
needs to go into it and it seems to me that we should do the 
assessment first.
    I should note that this is not just a partisan issue, it is 
not just Republicans saying this. Yesterday the AP reported 
that John Murtha, who holds a fairly important position on the 
Appropriations Committee, estimated that it would take as many 
as 600,000 troops to fully squelch violence in that country. 
Quote: Murtha also said he is uncomfortable with President 
Barak Obama's decision to increase the number of troops in that 
country by 17,000 before a goal was clearly defined. It is not 
just Republicans saying this. It is people, across the board, 
saying let's define the goal, let's reassess our strategy 
before we make clear commitments here.
    Absent a policy statement from the White House on this, I'm 
inclined, as much as I don't usually, to agree with Mr. Murtha 
here, that we are putting the cart before the horse. We should 
see the strategy outlined and we ought to have the reassessment 
before we decide how many troops and how they should be 
deployed.
    And with that, I thank the chairman again for calling the 
hearing and look forward to the witnesses.
    Mr. Tierney. Thank you, Mr. Flake. Thank you for your 
unspoken acknowledgement that Members of both sides of the 
aisle on this committee are questioning the strategy and 
whether one exists, when it will exist and we will go forward. 
Of course, we will hear from the administration in due course, 
giving them an opportunity, as we gave the courtesy of previous 
administrations, to develop their strategy before we make them 
come in and testify about it. In the meantime, hopefully--we 
are going to have some testimony here today from a 
distinguished panel.
    I will just introduce them before and then ask for their 
statements. Mr. Peter Bergen is a senior fellow at the New 
American Foundation. He is a national security analyst for CNN. 
His research focuses on the al Qaeda network, counterinsurgency 
and counterterrorism in Afghanistan and Pakistan and Iraq. And 
he has authored two books on al Qaeda and Osama bin Laden.
    Mr. Joshua T. White is a research fellow at the Institute 
for Global Engagement, is a Ph.D. Candidate at Johns Hopkins 
School for Advanced International Studies. His research focuses 
on Islamic politics and political stability in south Asia, and 
he spent nearly a year living in the northwest frontier 
province of Pakistan in 2005 and 2006.
    Dr. Paul R. Pillar is a visiting professor and director of 
studies at the Security Study Program at Georgetown University. 
He retired in 2005 from a distinguished 28-year career in the 
U.S. Intelligence Community in which his last role was National 
Intelligence Officer for the Near East and South Asia.
    I want to thank you all for making yourselves available 
today and for sharing your substantial expertise both through 
testimony and in your written remarks. Your written remarks 
will be entered in entirety on the record and we ask that you 
keep your remarks as close to within 5 minutes as you can. 
Although we have an abbreviated panel here today, I'm sure we 
want to hear what you have to say. We will be as generous on 
the 5 minutes as we can.
    It is the policy of the subcommittee to swear in witnesses 
before they testify. So I ask you to please stand and raise 
your right hands.
    [Witnesses sworn.]
    Mr. Tierney. The record will please reflect that all the 
witnesses answered in the affirmative. And, Mr. Bergen, we will 
start with you if you're prepared and welcome your remarks.

   STATEMENTS OF PETER BERGEN, SCHWARTZ SENIOR FELLOW AT NEW 
AMERICA FOUNDATION AND AUTHOR OF THE OSAMA BIN LADEN I KNOW: AN 
ORAL HISTORY OF AL QAEDA'S LEADER (2006), AS WELL AS INSIDE THE 
   SECRET WORLD OF OSAMA BIN LADEN (2001); JOSHUA T. WHITE, 
RESEARCH FELLOW AT THE INSTITUTE FOR GLOBAL ENGAGEMENT AND PH.D 
 CANDIDATE AT JOHNS HOPKINS SCHOOL FOR ADVANCED INTERNATIONAL 
   STUDIES; AND PAUL R. PILLAR, PH.D, VISITING PROFESSOR AND 
  DIRECTOR OF STUDIES, SECURITY STUDIES PROGRAM AT GEORGETOWN 
 UNIVERSITY, AND FORMER NATIONAL INTELLIGENCE OFFICER FOR THE 
                       NEAR EAST AND ASIA

                   STATEMENT OF PETER BERGEN

    Mr. Bergen. Thank you very much, Chairman Tierney, and 
thank you, ranking member--Congressman Flake. I wanted to 
respond just briefly to some of the things that Representative 
Flake mentioned about the deployment of the 17,000 soldiers. 
While it is certainly the case that the administration is still 
in the middle of strategic review both on the CENTCOM side and 
on the Holbrooke side and DOD generally, obviously the most 
important political event that Afghanistan faces is the 
election, and securing the election is the most important thing 
in the short term the American administration must do. Whether 
that election happens on August 20th, as at one point it was 
planned--now, of course, President Hamid Karzai is saying it 
might happen as early as April 21st. But whenever it happens, 
clearly, securing that election is a consideration that sort of 
trumps any other.
    Without a secure election, you could imagine a situation 
where all the Pashtuns don't vote. Then you would have a very 
contested situation, not dissimilar perhaps to the election in 
Iraq where a lot of, you know, Sunnis essentially boycotted. 
And we know what that resulted in.
    So securing this election is incredibly important. My 
comments are--basically I have three observations. One is how 
do the conflicts in Afghanistan and Pakistan fit into the wider 
war that we are fighting; what kind of war are we fighting? The 
Bush administration framed this as a war on terror. I think 
that was a rather open-ended and ambiguous framing and we 
should be more specific about who we are actually fighting. We 
are fighting al Qaeda and its allies. This framing is very 
useful in Afghanistan and Pakistan because then we can ask 
ourselves who exactly is allied to al Qaeda in Afghanistan and 
Pakistan.
    Chairman Tierney raised the question to what extent is al 
Qaeda influencing what is going on in Afghanistan. I think this 
is, in a sense, one of the main things we need to answer today. 
In my view, the Taliban has morphed together ideologically and 
tactically with al Qaeda to a degree which is almost quite 
surprising if you think about the history of the Taliban.
    The Taliban were a very provincial group of people when 
they were in power. Mullah Omar only visited his own capital of 
Kabul twice in the 5 years he ran the country. And they banned 
television. You know the history.
    Now they have a very aggressive propaganda operation. They 
are talking about their global jihad. They've made a number of 
references saying bin Laden is issuing some sort of orders 
which they are responding to, which I take at face value. They 
adopted the al Qaeda in Iraq insurgency playbook almost to the 
letter, which is one of the reasons we are where we are today 
in Afghanistan between the suicide attacks going up 
exponentially, the beheadings, the use--the very effective use 
of information operations against us, etc. So al Qaeda and the 
Taliban, at least on the upper levels, have morphed together 
ideologically and tactically.
    On the lower levels, sure, there are lots of local members 
of the Taliban who are influenced because they are involved 
with drug trafficking. Well, they have some purely local 
concern and these are people that definitely--the United States 
and the Afghan Government can do deals with, just as we have a 
number of different deals in Iraq where we have probably a 
couple of hundred separate peace negotiations for particular 
insurgent groups.
    Yes, that is plausible in Afghanistan, but there is a huge 
caveat. There is a big difference between al Qaeda in Iraq, 
which was really a foreign group, and was seen as a foreign 
group, and the Taliban itself and Afghanistan. The Taliban is 
the guy next door that you grew up with if you lived in the 
Pashtun areas of the country. And also al Qaeda has been in 
this area for much longer than they were in Iraq. Al Qaeda, 
after all, was founded in Pakistan in 1988. Bin Laden and Ayman 
Zawahiri, they spent most of their adult lives in and around 
Pakistan and Afghanistan. They understand the local scene much 
better. So it is going to be harder--obviously we want to co-
opt, split or make some kind of deal where you have the Taliban 
moving away, reconcilable Taliban.
    But my caveat today is that I think that is going to be a 
little harder than it was in Iraq and it wasn't easy in Iraq 
either.
    One other broad question in the time I have left is why 
should we be in Afghanistan at all? I mean, al Qaeda isn't 
headquartered there. They are headquartered in Pakistan. By the 
way, do the thought experiment, where Iran was the headquarters 
of al Qaeda, Iran was the headquarters of the Taliban. Iranian 
nuclear scientists have met with bin Laden to discuss nuclear 
weapons before 9/11 and the Iranian nuclear establishment had 
been leaking technology and know-how to Libya and North Korea. 
Undoubtedly we would have gone to war against Iran if that was 
the case after 9/11. But, of course, that is not Iran, that is 
Pakistan.
    So here is a nominal close ally which is the headquarters 
and has continued to be the headquarters for the last 8 years 
of these groups that the United States is at war with. So why 
don't we--why should we be in Afghanistan at all? I think there 
is a very simple answer to that.
    First--two answers. One is we have a moral obligation to 
get it right there. We overthrew their government and we owe it 
to the Afghans to do it. This is the third poorest country in 
the world and we have already run a videotape where we 
basically washed our hands of the situation. It is very 
important to remember that in 1989, the United States closed 
its Embassy in Kabul and both the George H.W. Bush 
administration and the Clinton administration essentially 
washed their hands of Afghanistan. And we know what happened as 
a result of that. Al Qaeda and the Taliban moved in to fill 
that vacuum.
    We cannot let that happen again. So our strategy in 
Afghanistan is essentially to not allow the Taliban to come 
back and basically give al Qaeda another sanctuary, which is--
would undoubtedly happen if we basically did what we did in 
1989 again. I'm fairly confident that no one on this committee 
is advocating or thinking along those lines to do something 
like that. But clearly we need to get it right.
    Afghanistan, as Admiral Mike Mullen pointed out, is an 
economy-of-force operation. It has been an economy-of-force 
operation. You get what you pay for and we need to get serious 
about making it right.
    Mr. Tierney. Thank you very much.
    [The prepared statement of Mr. Bergen follows:]

    [GRAPHIC] [TIFF OMITTED] T1613.004
    
    [GRAPHIC] [TIFF OMITTED] T1613.005
    
    [GRAPHIC] [TIFF OMITTED] T1613.006
    
    [GRAPHIC] [TIFF OMITTED] T1613.007
    
    [GRAPHIC] [TIFF OMITTED] T1613.008
    
    [GRAPHIC] [TIFF OMITTED] T1613.009
    
    [GRAPHIC] [TIFF OMITTED] T1613.010
    
    [GRAPHIC] [TIFF OMITTED] T1613.011
    
    [GRAPHIC] [TIFF OMITTED] T1613.012
    
    [GRAPHIC] [TIFF OMITTED] T1613.013
    
    [GRAPHIC] [TIFF OMITTED] T1613.014
    
    [GRAPHIC] [TIFF OMITTED] T1613.015
    
    [GRAPHIC] [TIFF OMITTED] T1613.016
    
    Mr. Tierney. Mr. White.

                  STATEMENT OF JOSHUA T. WHITE

    Mr. White. Thank you, Mr. Chairman and Ranking Member 
Flake, for the opportunity to be here today. I want to take up 
the chairman's challenge and try to make a little sense of the 
fog and particularly the fog that we see on the Pakistani side 
of the border. And in doing so, I'd like to make just two brief 
points about some of the trend lines that I've observed over 
the last 4 years traveling to Pakistan and particularly in the 
frontier areas.
    On the one hand, we see a very striking trend toward 
consolidation of Islamist groups in Pakistan. You probably know 
that one of the enduring features of this part of the world is 
the abundance of ad hoc alliances, and particularly alliances 
of convenience between tribal blocs, between Islamist groups, 
between tribal blocs and Islamist groups. And just recently we 
saw the emergence of a new shura at the Mujahedin, a group of 
three blocs in Waziristan who have come together to oppose the 
United States and NATO.
    It is very difficult to tease out what these alliances 
really mean. Often they are simply sort of branding exercises 
on the part of these organizations more than they are about 
operational mergers. But nonetheless, we need to take them 
seriously and we see this happening often. We see the 
consolidation of Islamist groups. At the same time, just 
beneath the surface, we are seeing a tremendous amount of 
fragmentation. And I really began to pay attention to this in 
2006 when, as a result of the Institute for Global Engagement's 
interfaith efforts, I was visiting some of my Pashtun friends 
down at a place called Bannu, which is adjacent to the north 
Waziristan tribal agency, and it happened to be just around the 
corner from the madrassa where John Walker Lynn of the American 
Taliban had done his studies.
    And I was talking with my friends and drinking tea there 
and I found that a number of them were generally very 
sympathetic to the Taliban, but they were also increasingly 
worried about the Taliban. And they were worried because, 
increasingly, they couldn't figure out who the Taliban were 
anymore. There were local tribal leaders who had started 
calling themselves Taliban. There were smuggling gangs who had 
started calling themselves Taliban. There were militants who 
had fought in Kashmir, Punjabi militants, who couldn't get 
their--they couldn't get their jihadi unemployment benefits and 
so they decided to go over to Bannu and become the Taliban in 
Bannu. And then there were, of course, the unemployed madrassa 
graduates from around the corner who had nothing to do, who put 
on a black turban and called themselves the Taliban.
    So it was all very entrepreneurial, but it was also 
beginning in the mind of my local Pashtunian friends to get out 
of control. They couldn't tell who the Taliban really was. Now, 
if you take this trend and you multiply it across northwest 
Pakistan over the last 4 years, you can get a sense for why 
this fragmentation has been so troubling, not just to me and 
not just hopefully to you, but also to Pakistanis and to the 
Government of Pakistan.
    The Taliban movement at large has really spun out of the 
control of the government and it is impossible at this point 
for the government to deal with the quote-unquote Taliban as a 
unitary actor, as one organization. And this is why at the end 
of the day, I tend to worry more about fragmentation than I do 
about new groups, new umbrella groups emerging which call 
themselves the Taliban.
    The second point very briefly follows from this, which is 
that my experience in the frontier is that all insurgency at 
the end of the day is local. And all you have to do is look at 
a map of the frontier, a detailed map, and you can see that the 
frontier of Pakistan is this bewildering patchwork of different 
systems of government, different tribes, different regulations, 
local grievances, local dynamics and, of course, local groups 
which call themselves the Taliban.
    And to be very simple about it--and we can speak about this 
in the question and answer--the United States needs to be very 
intentional about targeting its assistance, its development 
assistance, its security assistance and its governance 
assistance in an integrated way to take account for these local 
dynamics.
    Waziristan is very different from Peshawar, Peshawar is 
very different from Swat. And even though these regions are 
close together, they represent strikingly different 
environments. And our assistance needs to be cognizant of that.
    We can talk about what this means specifically; but in my 
view, if U.S. assistance is going to be effective in meeting 
our core objectives, we need to ask exactly where is the money 
going, to which regions, and we need to ask how the money going 
to those specific regions is addressing local dynamics, how it 
is addressing root causes. Because in some areas, lack of 
development is arguably a very important cause of the 
insurgency. In other areas, it is really an unimportant effect. 
And we need at least, as best we can from Washington, to tease 
that out so that our assistance can be as effective as 
possible.
    I look forward to taking your questions.
    Mr. Tierney. Thank you very much.
    Dr. Pillar.

                  STATEMENT OF PAUL R. PILLAR

    Mr. Pillar. Thank you, Mr. Chairman. In your opening 
statement, you outlined a whole host of extremely important 
questions, and I hope you consider this hearing a success if we 
get to only a fraction of them. I will try to just comment on a 
few things that embellish on that list that you mentioned.
    The current conflicts in Afghanistan and Pakistan are 
multifaceted, they are interrelated, they affect a variety of 
U.S. interests. There is no way to clearly categorize these 
conflicts or the protagonists in these conflicts into allies 
versus adversaries and the good guys versus bad guys. It is far 
more complex than that. The main reason that I think we are in 
Afghanistan is exactly as Peter Bergen stated.
    But I would then quickly jump to the other main interests 
that we have here as far as U.S. interest is concerned, and 
that is Pakistan, less we forget the sixth most populous 
country in the world, the second most populous primarily Muslim 
country in the world. We have a strong interest in Pakistani 
stability and everything that implies with regard to getting 
the Pakistanis to try to cooperate with us, not just on 
counterterrorism, but on any other U.S. interests that touch 
both of our governments.
    The one other thing I would say on that score is anything 
that involves Pakistan also involves the Pakistani-Indian 
conflict and rivalry; the tendency of both of those two parties 
to zero sum everything, to look at anything good for one of the 
parties to be bad for the other one--even though that is not 
really the case, but that is how they perceive it--means that 
U.S. policy toward Pakistan inevitably is going to affect the 
Indo-Pakistani rivalry.
    You mentioned narcotics, Mr. Chairman. We will just note 
for the record that Afghanistan is the largest producer of 
opium poppy in the world, used for heroin. And the problem of 
poppy cultivation is inseparable from the problem of 
infrastructure and economic development. The fact is, in 
Afghanistan it is just darn hard to make a living growing legal 
crops that are bulkier and heavier but do not bring as good a 
return as poppy. And it is also inseparable from the 
insurgency, the Taliban part of it in particular, which profits 
from the drug trade.
    And one other thing I would note as far as U.S. interests 
are concerned is we do have already that ongoing 
counterinsurgency and stabilization effort in Afghanistan being 
augmented by those 17,000 troops. And so that necessarily 
entails other operational requirements and interests involving 
the security of our forces, their resupply and so on, that, 
like it or not, entail U.S. interests that are going to be with 
us for some time.
    With regard to the insurgency in Afghanistan, which my 
colleagues, I think, have described the mainlines of very well, 
I would just further note that you have multiple lines of 
conflict in Afghanistan that have underlain the over three 
decades of civil strife and instability in that country. You 
have an ethnic element, which pits primarily the Pashtuns who 
have the majority, and the unstable south and east; and also, 
by the way, the majority of the other side of the Duran line in 
the tribal areas of Pakistan against other ethnic groups such 
as Tajiks and Uzbeks, and this was a major factor throughout 
the period of the war against the Soviets and the subsequent 
civil war.
    You also have the traditional struggles for power between 
whatever is the central government in Kabul and centers of 
power elsewhere in the country, primarily those chieftains and 
militia heads we generally call warlords.
    In Pakistan you also have multiple lines of conflict--it is 
sometimes easy to forget. The one between the radical Islamists 
such as the Pakistani Taliban that now basically control most 
of the FATA and have extended their region into other areas 
like the Valley of Swat is just one facet of one of those 
lines. We may have seen another facet of that same line just 
yesterday with the attack on the Sri Lankan cricket team, a 
very well-organized operation in Lahor. But beyond that, you 
have the uneasy relations between the civilian establishment 
and the military structure in Pakistan.
    We have had a history during Pakistan's six decades of 
existence of alternation and rule between military and civilian 
governments. Basically what happens is one side or the other 
has power for several years, until the Pakistani people get fed 
up and they throw them out. And they have just done that with 
General Musharraf having reached the end of his rope last year.
    But any new understanding between the civilian and military 
structures and leadership of Pakistan, particularly regarding 
such things as how to deal with the Taliban, has yet to be 
worked out. And then among the civilians themselves, the 
acrimony between the supporters of the accidental President, 
Asif Ali Zardari, and the main opposition leader, Nawaz Sharif, 
is as deep and strong as ever, punctuated by last week's 
decision by the PakistaniSupreme Court barring Sharif from 
running for office.
    One thing that we need to remember is that the Pakistani 
and Afghan protagonists themselves in all these conflicts do 
not necessarily see the mosaic the same way you or I would see 
it. In particular, Pakistani leaders, especially military 
leaders, tend to view everything through the lens of their 
standoff with India. That is part of the reason most Pakistani 
military forces are still in the Southeast, facing India, and 
not in the Northwest, where the trouble that we are more 
concerned about is going on.
    This perspective has also colored and continues to color 
Pakistanis' views toward Afghanistan and the Taliban. Before 
Pakistan, Afghanistan is part of their strategic depth as they 
confront India.
    As was noted, the Taliban is originally a creation of 
Pakistan. And for some Pakistanis, particularly in the 
military, even if they realize their creation has kind of 
gotten out of control in a way that they did not foresee, the 
Taliban is still, in the eyes of at least some of them, a 
useful hedge against the considerable uncertainty in 
Afghanistan.
    I would close my oral comments by just noting three 
requirements of any policy review, including the one that the 
administration has going or any other discussion we may have 
about setting a new course in this theater. One is--step one, 
to just determine what U.S. policy objectives ought to be. And 
that is not self-evident even when it comes to the 
counterterrorist objectives that are so important.
    Second, we have to set relative priorities among what are 
competing objectives, and they can compete even within the 
counterterrorist area. For example, we have seen this with some 
of the U.S. missile strikes on both sides of the Duran line, 
which have achieved tactical gains in putting out of commission 
some al Qaeda operatives, but have done so at the price of 
incurring popular wrath that can increase sympathy and support 
for terrorist objectives.
    And finally, policymakers have to determine not just the 
relative priority, but the absolute priority of U.S. objectives 
in the region in the sense of whether they are important enough 
to warrant the cost and commitment necessary to achieve them.
    And I think Congressman Murtha's quoted comment about 
600,000 troops--I think General McNeil, the former commander of 
ISAF used a figure of 400,000--but suffice it to say several 
hundred thousand that would probably be required according to 
the counterinsurgency doctrine and manuals to really pacify 
Afghanistan is a dose of reality that we all need to take into 
account when we consider any new course.
    Thank you, Mr. Chairman. I look forward to your questions.
    Mr. Tierney. Thank you.
    [The prepared statement of Mr. Pillar follows:]

    [GRAPHIC] [TIFF OMITTED] T1613.017
    
    [GRAPHIC] [TIFF OMITTED] T1613.018
    
    [GRAPHIC] [TIFF OMITTED] T1613.019
    
    [GRAPHIC] [TIFF OMITTED] T1613.020
    
    Mr. Tierney. You know, this is probably one of the more 
complex issues that we will discuss in national security and 
foreign policy. And all three of you managed to get your 
comments done under 5 minutes. It is amazing. Thank you for 
observing that time.
    We are going to go to the question-and-answer period and we 
are going to try to figure a better way to do this eventually 
than the 5-minute rule, something a little more free flowing. 
But Mr. Flake and I will talk about that in the future. For now 
we will go under the 5-minute rule and try to give as many 
people an opportunity to ask their questions and have a second 
round if necessary.
    Mr. Pillar, I want to start where you left off. And at the 
end of your written remarks, you talk about the first step in 
setting any new course of U.S. strategy in the region is to 
determine U.S. policy objectives and what they ought to be. You 
say, even the most defensible objective, preventing the 
establishment in Afghanistan of the kind of home for 
transnational terrorist group that existed there until 2001, is 
not self-evident. Given the difficulty of demonstrating the 
different levels of U.S. effort in Afghanistan, it would make 
the difference between such a terrorist haven being or not 
being established. And that is in addition to the question of 
how important such a physical haven is to terrorist groups who 
do most of their preparations for attacking Western targets 
elsewhere, including in the West.
    I phrased it differently, but I've been asking that of 
General McKiernan, or our ODNI, and the different people on 
that. If we are saying our rationale is that we don't want--
that the Taliban in Afghanistan is really more of a localized 
problem, narcotics people and the drug warlords, but the reason 
we say that we have a military interest there is to stop it 
from becoming a safe haven, because we believe that if the 
Taliban takes over, they'll invite in al Qaeda, who is not 
there presently, and then they will be getting back to pre-
2001. I think that begs the question. Al Qaeda already has a 
safe haven in Pakistan. I think that without too much effort, 
they can have a safe haven in Yemen, Somalia, Sudan, Algiers 
and go right on down the line. In none of those places, and 
particularly in Pakistan, are we sending in ground troops of 
any magnitude to speak of, never mind 600,000. We have decided 
we are going to deal with that wholly different.
    I think Mr. White talks about some ways of doing that, 
localized aid and assistance, beefing up their security forces, 
working on that basis. Why is it important for us ostensibly, 
then, to have a military answer, primarily in Afghanistan, when 
it is uncertain as to whether or not we can get to the level 
that would actually pacify the whole region, when we have 
decided to handle the situation other ways in Pakistan and 
elsewhere.
    Mr. Pillar. Excellent question. And that is why I raised it 
at the end of my statement that you cited. I think there are 
three issues here, Mr. Chairman. One is--and especially if we 
can assume we are not going to go to levels like 600,000 
troops. I don't expect we will. Is that going to make--whatever 
level of effort we do decide on, is that going to make the 
difference between having or not having some corner of 
Afghanistan in which, whatever level of troops we have, it is 
not fully covered?
    Mr. Tierney. Or in Pakistan still?
    Mr. Pillar. Or Pakistan for that matter, yeah. That is 
point number one.
    But also is the further point of just--well, the second one 
that you mentioned. If you want safe havens, there are ample 
opportunities for them elsewhere. And you mentioned two or 
three of the most notable ones.
    But the third point I would make, the last sentence that 
you quoted from my statement is the question of how important a 
physical safe haven on the other side of the world is for the 
kind of terrorist group we are most worried about, particularly 
the kind that would cause us harm in the United States.
    Recall the parameters of the preparation for the 9/11 
operation. Yes, al Qaeda did have a safe haven under the 
Taliban in Afghanistan. Where did most of the preparations take 
place? In Hamburg and Kuala Lumpur and in flight schools here 
in the United States. So I worry a lot about this continued 
terrorist threat to the U.S. homeland. I don't worry about it 
primarily in terms of save havens in countries on the other 
side of the world.
    Mr. Tierney. Mr. Bergen, would you care to react to that?
    Mr. Bergen. I'm going to take a slightly different tact.
    Mr. Tierney. I suspected you would.
    Mr. Bergen. I think that if you look at any effective 
terrorist attacks, there is always a safe haven at the bottom. 
Somebody has had military training or involved in some sort of 
paramilitary. You don't learn this over the Internet. I mean, 
look at the Mumbai attack. The guys in the Mumbai attack had 
trained in a training camp in Murshidabad. That is why they 
could go and kill so many people so effectively. So I think 
save havens are important.
    There are save havens and there are save havens. Pre-9/11, 
you had thousands of people going through the training camps. 
Obviously, we don't want to return to that. The training camps 
in Pakistan are smaller. They are perhaps 20 people. They are 
not amenable to overhead imagery. They are in compounds.
    But look at the London attack of July 7, 2005. The two 
leaders of the attack both trained with al Qaeda in Pakistan at 
some form of training camp.
    So it is important for us to reduce the number of safe 
havens, it goes without saying, and particularly--and obviously 
the kind of safe haven of the pre-9/11 safe haven in 
Afghanistan would be--is something that we must be very careful 
not to allow to come back.
    But I wanted to pick up on the 600,000 figure because this 
is incredibly important. There are 565,000 members of the Iraqi 
police and Army. Iraq is a smaller country in population and it 
is much smaller in area and it is a desert which is very easy 
to control, relatively speaking. Afghanistan has a larger 
population. It is mountainous. So it is very amenable to 
guerilla warfare. Of course, the United States is never going 
to produce hundreds and thousands of additional soldiers to go 
to Afghanistan. But our exit strategy at the end of the day is 
the Afghan Army and the Afghan National Police. We have done a 
terrible job of that. The Afghan National Army in 2002 was 
6,000 guys. That is the size of a small police force in an 
American city. So this is where we really need to focus our 
attention. When we send additional troops to Afghanistan, it is 
the most important role that they are going to be doing, is 
advising, mentoring, and embedding with the Afghan Army itself 
and expanding that rather dramatically.
    Mr. Tierney. Thank you. The last point you make is 
interesting, that we went from 17,000 to 36,000, to having 
troops there just to be embedded and to train and to do--that 
is a whole different strategy than what we are doing now. But 
also, you know, the idea of safe havens being a problem, of 
course they are, whatever. But I think the question still goes 
through, do we intend to take a military engagement against 
every potential safe haven of whatever size, or is there 
another way to deal with that as we are currently looking to do 
another way in Pakistan.
    And last, just on the Afghan Security Force, we have done 
some hearings on that. I don't think anybody here is very 
impressed with the likelihood that that force is going to get 
up to any particular level anytime soon, given the literacy 
issues, the corruption issues, and the sheer lack of numbers of 
qualified people on that. That is an issue.
    Mr. White, do you want to comment on the general issue?
    Mr. White. Just very briefly, I would say it is obvious we 
do have a different strategy in Pakistan than Afghanistan 
because we have a fundamental interest in the stability of the 
Pakistani state. And I tried to highlight, very briefly in my 
testimony, the fact that it is not only the transnational al 
Qaeda threat that face, but we face a number of groups which 
vector their efforts toward Islamabad. And given the progress 
of Iran's role as a nuclear-armed state, as an influential 
state in the Muslim world, and as a geostrategic state which 
has importance to us, that is also a real concern. I think that 
explains why we do what we do.
    Mr. Tierney. Thank you very much. Mr. Flake, you're 
recognized.
    Mr. Flake. Thank you. I appreciate the testimony. Mr. 
Bergen, when we visited Mr. Karzai in December 2004, I believe 
it was, he had just been inaugurated then and he referred to 
the war on drugs there and the war on poppies as the mother of 
all battles. Notably, when I was there just a month ago or 2 
months ago in December, he downplayed that war substantially 
and even said that there was little evidence that the Taliban 
was profiting from the drug trade, that those who were 
profiting were somewhere in Europe somewhere, but it really 
wasn't filtering back to the Taliban.
    In your statement, Mr. Bergen, you mention that they are 
profiting handsomely from the drug trade. Do you want to 
comment on that, and the government, the Afghan Government's 
commitment or lack thereof to fighting the drug war?
    Mr. Bergen. Thank you very much, Congressman Flake. I think 
that--I mean, it is a widely accepted fact that the Taliban is 
profiting handsomely from the drug trade. Insurgencies cost a 
lot of money to run because you have to pay people to be a part 
of the insurgency. They don't volunteer like terrorists who you 
don't have to pay. An Afghan policeman is making $70 to $100 a 
month. The Taliban foot soldier is making $300 a month. This 
money is not coming out magically and suddenly appearing. This 
money is coming from the drug trade.
    What can the United States do about it? The DEA surely 
knows who the leading drug lords are in Afghanistan. Think 
about Colombia. Pablo Escobar was a household name in the early 
nineties. The Cali Cartel was a household name. Why don't we 
know the names of the Afghan drug lords? As the committee will 
surely understand, because it includes a number of government 
officials. The time for their public embarrassment is over. Why 
can't we basically say to the DEA it is a matter of--there are 
all sorts of reasons that they are keeping this private. But I 
think the moment has come to make it public.
    Second, there is no extradition treaty between the United 
States and Afghanistan. The Afghan judicial system is a joke. 
Congress wouldn't be presumably able to set up some kind of 
extradition treaty for major drug lords from Afghanistan who 
could be tried in the Southern District of New York or other 
locations.
    So those are I think two specific things that we can 
actually do to change the situation. The Afghan Government has 
proven unwilling or incapable of doing so.
    Mr. Flake. Mr. White, there is talk, that 600,000 troop 
figure that has been thrown around, that that would be what we 
need to actually secure the country. Is there--obviously we 
need more than troops. You have to have a strategy and you have 
to employ that. And we have the PRTs and we are making a lot of 
efforts on a lot of levels.
    What is the--in your view--the bottom threshold of numbers 
of troops that the United States will have to commit in order 
to give effect to any strategy that might work? Is there a 
minimum threshold and everybody knows we are unlikely to get to 
the 600- level. Is there a point at which anywhere under the 
threshold, why bother? Can you comment on that?
    Mr. White. It is a very good question. I want to comment 
first just briefly on your question to Mr. Bergen and just to 
note that I think that there is a relationship, although it is 
not one that is very well understood in detail, between the 
drug trade in Afghanistan and the entrepreneurial nature of the 
Taliban insurgency in Pakistan, this fragmentation that I was 
talking about. Because when you have a lot of money that is 
available, then you have a lot of options for new groups to 
begin and for drug smugglers to essentially label themselves 
the Taliban and to operate on that basis. So there is a clear 
linkage there.
    To the point about Afghanistan, I can't answer the question 
about a minimum threshold, but I think that I am sympathetic 
with a part of your opening statement in terms of the 
importance of specifying what these troops are going to be 
doing and particularly at what level they are going to be 
operating. Are they going to be operating out of PRTs, are they 
going to be more forward-deployed at a village level, are they 
going to be focused on securing major urban areas in the South, 
are they going to be focused on rural areas? What do those 
objectives actually look like? And until we understand a little 
bit more about what that strategy looks like at a very granular 
level, I'm not sure that we can begin talking about minimum 
thresholds and the like. I think those are some of the 
prerequisite kind of questions.
    Mr. Flake. Mr. Pillar, do you have any comments briefly?
    Mr. Pillar. Just the other prerequisite question, after 
talking about sufficient levels, is just what the end state is 
and what we hope to achieve. And is it a unified Afghanistan, 
is it something much more fractionated? Is it one where the 
central government is one that we would consider a friend and 
ally or just one that we would consider has achieved a modicum 
of stability? Those are basic questions you have to answer 
first.
    Mr. Flake. Thank you, Mr. Chairman.
    Mr. Tierney. Thank you. Mr. Foster, you're recognized for 5 
minutes.
    Mr. Foster. A couple of questions about the possible 
parameters for the end state that we might get to, and 
particularly the economic investment that the international 
communities should think about making. And first, are you aware 
of any estimates for how much it would take to buy out the 
poppy farmers?
    Mr. Bergen. Yeah. The gate price of the opium that is 
produced is $750 million, which is about the amount of money 
the United States pays in its anti-narcotics policy in 
Afghanistan.
    Mr. Foster. So for twice that? So if we are willing to put 
twice that every year, there is a reasonable chance that we 
could buy out the poppy farmers?
    Mr. Bergen. It would be $1.5 billion.
    Mr. Foster. Similarly if you think about the manpower 
requirements for a well-trained Afghan Army and police force, 
do you have a seat-of-the-pants guess for how many well-trained 
officers you would need to actually have the central government 
control the country? Any of you.
    Mr. Bergen. The short answer is no. I mean, the 600,000 
figure of soldiers and police is correct, and obviously most of 
that would be police.
    Mr. Foster. Is there some rule of thumb for if you just 
look at marginally developed countries that are, in fact, 
stable, what fraction of their total populations are police 
force?
    Mr. Pillar. I would just comment, Congressman, that I'm not 
going to give you a percentage either. But in Afghanistan, 
you've got the added problem, which is appropriate for you to 
ask about the officer corps, of basic literacy and other 
skills, mainly literacy, that is required in the officer corps 
but not necessarily in the enlisted ranks. And that is one of 
the main impediments to----
    Mr. Foster. I was talking about the end state where we put 
the time and effort a generation from now, so that we actually 
have a generation that has been trained from at least 
adolescents up to----
    Mr. Pillar. It is probably somewhere in General Petraeus' 
counterinsurgency manual, but I don't know what the figure 
would be.
    Mr. Foster. Okay. Do any of you have a feeling whether the 
missile strikes against the Taliban, the recent ones, have been 
a net plus or not? It is obvious they are a mixed bag, but do 
you have a feeling?
    Mr. Pillar. In my judgment, no. Although it is hard to make 
a case either way because, as I noted in my comments, there 
have been important tactical successes scored, important al 
Qaeda operatives have been taken out of combat. But we see in 
the press reporting almost every week some of the popular 
response with regard to the perception that the United States 
is heartless and careless when it comes to Muslim lives on both 
sides of the Duran line, and that is the sort of thing that 
could have a much more widespread effect even going beyond 
Afghanistan and Pakistan. So my sense is the net effect, when 
you consider that plus and minus, is a net minus.
    Mr. Bergen. I think it is a maybe. There were three missile 
strikes in 2007. There were 34 in 2008. There have been five 
under the Obama administration. So the Obama administration is 
actually ramping up from what the already quite ramped-up Bush 
administration policy on this. Eight readily senior members of 
al Qaeda have been killed, including al Qaeda's number three. 
The most dangerous job in the world is being al Qaeda's number 
3, because there is a constant replenishment of number 3s. But 
clearly one metric to actually determine how successful this 
thing is, the number of al Qaeda videotape releases have 
dropped. This is, I think, an important indicator because to 
get these things out, you need couriers, you need people. In 
the past year, we have seen a drop from the record in 2007. So 
this is interfering with al Qaeda's command and control.
    But as Professor Pillar has pointed out, there are enormous 
opportunity costs here. We have to calibrate recruiting--
offering a recruiting tool to the Pakistani Taliban versus 
disrupting al Qaeda which is, of course, our primary interest.
    Mr. Foster. Are you--go ahead.
    Mr. White. I would just say very briefly that one of the 
reasons this is very difficult to assess is because there is a 
local effect and then there is a national or bilateral effect: 
the local effect, which is to say do the missile strikes 
radicalize the local population and spur recruitment into al 
Qaeda or into the Taliban, that is exceptionally difficult to 
asses; the national effect, the effect that it has on the 
legitimacy of the Zawahiri government, the ability of the 
Zawahiri government to take action against Taliban or al Qaeda 
groups.
    The relationship between Pakistan and the United States on 
a bilateral basis is much easier to asses, and that is what 
makes me think that this is probably a negative. But it is very 
difficult to tell what is actually happening in the immediate 
vicinity of these strikes after they occur.
    Mr. Foster. Do they, for example, make the United States 
appear as though they are a more useful ally?
    Mr. Bergen. By the way, there is very good polling data on 
this. In a 2008 poll, Pakistanis were asked, what is the 
principal threat to your security? Fifty-two percent said the 
United States; only 8 percent said al Qaeda. Clearly in our 
minds that is crazy; however, that is how it is perceived in 
Pakistan.
    Mr. Foster. Thank you. I yield back.
    Mr. Tierney. Thank you, Mr. Foster. Mr. Mica, you're 
recognized for 5 minutes.
    Mr. Mica. Thank you.
    Mr. Bergen, you have spent a long time as a CNN reporter. I 
guess you were one of the first to interview Osama bin Laden 
and, I guess, some time writing about him and reviewing his 
activities. Sort of at the core of what we are after, I would 
imagine, here is what he initiated. I think one of the your 
books, too, details some connections between the Afghanistan or 
al Qaeda link and the World Trade Center in 1993. These appear 
to be some pretty patient people.
    And, Mr. Pillar, you described how their organization was 
in Germany, Kuala Lumpur and even the United States. They don't 
seem to have a specific home other than Afghanistan, or they 
use Afghanistan and Pakistan to--as havens to slide between 
borders.
    My first question would be, given what you have seen over--
again, looking at this for years and their activities, they are 
very patient. I would tend to think that they are looking to 
another hit. They were very successful with both the World 
Trade Center the first time during the Clinton administration 
and then hitting us during the Bush administration and taking--
actually taking the towers down.
    Do you feel that their plans would include another--I 
chaired Aviation for 6 years--major attack in aviation, since 
that was such a success; or maybe get their hands on nuclear or 
some sort of dirty bomb to do another spectacular? What would 
be your opinion?
    Mr. Bergen. Certainly they are patient. I mean, Ayman 
Zawahiri, al Qaeda's number two, points out that it took two 
centuries to get the Crusaders out of the Middle East in the 
Middle Ages. So that is the way they think. But--and we know 
that they want to----
    Mr. Mica. So you're saying they are patient and that they 
are determined?
    Mr. Bergen. Indeed. However----
    Mr. Mica. What about the threats?
    Mr. Bergen. I think the threat level against the United 
States from al Qaeda is actually very low for three reasons. As 
for al Qaeda, while it has resurged, it is not at the point 
where it was before 9/11.
    Second, the American Muslim community has rejected the al 
Qaeda ideology.
    Third, I can't prove negatives to you, but I don't believe 
there are al Qaeda sleeper cells in this country. They are so 
asleep, if they exist, they are either comatose or dead. 
They've done nothing.
    Mr. Mica. Do you think they've given up or just in waiting?
    Mr. Bergen. I think, you know, we have had--and also the 
Bush administration, the government in general, made it much 
harder to get into this country. When we have been attacked by 
Jihadi terrorists in the past, they have always come from 
outside. That was true on 9/11. It was true in 1993 with the 
Trade Center attack and it was true when Ahmed Ressam tried to 
blow up Los Angeles International Airport.
    Mr. Mica. They had a whole history--if you go back to 
Clinton, we had the Khobar Towers, we had the Cole, we had the 
bombings and the Saudis--and other bombings in Saudi Arabia. We 
had the simultaneous bombing of our embassies in Africa. And so 
they haven't--since 2001, there have also been additional hits. 
To your best knowledge, you don't think they are working on a 
spectacular?
    Mr. Bergen. I mean, they are always working on it on a 
theoretical level. The question is what can they do on a 
practical level?
    Mr. Pillar. I would agree with everything that Peter Bergen 
just said. I would just add that we should not focus too 
narrowly on the one group, al Qaeda, the group led by bin Laden 
and Zawahiri. We do have----
    Mr. Mica. Then it is more of a war on terror than what----
    Mr. Pillar. It doesn't have to be generalized that----
    Mr. Mica [continuing]. Terrorism.
    Mr. Pillar. We can talk about radical Sunni, Salise 
Islamists, just that movement.
    Mr. Mica. Whether you have Obama in office, Bush in office, 
Clinton in office, are they any more warm and fuzzy toward the 
West?
    Mr. Pillar. The attitudes toward the West, and toward the 
United States specifically, are a mixture of attitudes that 
would be there because we are the leader of the----
    Mr. Mica. Because some are still pretty radical and extreme 
and hell-bent on destroying us.
    Mr. Pillar. Yes. But policy does matter as well. It is a 
mixture. It is not all one or the other.
    Mr. Mica. My final question is, you know, what should our 
objective be? Is our objective to be to get bin Laden? Are we 
trying a political solution maybe to just get some neutrality? 
Or is this a military--should this be a full-fledged military 
campaign to take them out? Mr. Bergen.
    Mr. Bergen. In Afghanistan, sir, or----
    Mr. Mica. Of course, you have the situation of we have to 
get permission in Pakistan and we have been going across the 
border, I guess, in some cases without permission. But what is 
our objective in that area, Afghanistan, Pakistan?
    Mr. Bergen. I think it is largely a counter sanctuary 
strategy, which is not allowing them to have safe havens 
through which they can train people to attack us or our allies 
or Americans abroad because the threat from al Qaeda is not 
necessarily on the United States in general, but it is here and 
for Americans abroad.
    Mr. Pillar. It is primarily to prevent the recurrence of 
the kind of safe haven and sanctuary that existed under the 
Taliban prior to September 2001.
    Mr. Tierney. Thank you, Mr. Mica. Mr. Lynch, you're 
recognized for 5 minutes.
    Mr. Lynch. Thank you, Mr. Chairman. Thank you for holding 
this very important hearing. I want to thank the witnesses for 
helping the committee out with its work. I returned from 
Afghanistan yesterday along with Mr. Driehaus and Mr. Platts 
from the committee and Mr. Connolly from the committee, and I 
know the chairman was there last week.
    I had an opportunity to spend some time in Kandahar 
Province with Special Forces operations that are going forward 
in there and also some Marine units operating there and in 
Helmand Province. And the military has explained a new 
phenomenon in their daily contact with Taliban forces and 
actually local Afghan fighters. And what they described to me 
and to the other members of the Codel was that they are having 
daily pitch battles, they said, reminiscent of something you 
might see in World War II, where local Afghan fighters allied 
with the Taliban are actually not retreating over the border 
into Pakistan, they are defending their ground. And each and 
every day that our units go out there, they are in daily 
contact with the enemy.
    And I asked why this change might have occurred, and they 
said that part of it is the fact that our troops and Afghan 
national troops are conducting a more aggressive eradication 
process in the Helmand Valley and other areas that are 
producing a lot of poppy, and that we are alienating the local 
farmers.
    Now, I know we have to--I know we have to do this for all 
the right reasons. But you three guys are pretty smart guys. 
You know the situation there. How do we--how do we manage that 
operation? In other words, are we going to destroy all the 
poppy, as much as we can, and yet continue to try to retain the 
loyalty and friendship and support of the local population 
there?
    We don't want--the only way an insurgency is going to 
survive there is if it has the support of the population, and 
that seems to be where we are driving, at least some of them. 
Now, that same area, RC South, is where we are going to see a 
lot of our sons and daughters going in the coming months. It is 
a real hot-bed but there is a real--I don't know it is a real 
paradox, because what we are doing is the right thing. However, 
it seems to be because of the situation there and the great 
reliance on that economy on the poppy cultivation that we are 
maybe driving some people into the arms of the Taliban and the 
insurgency.
    So could you help me with that and how we might not have 
that effect?
    Mr. Bergen. Imagine a group of cops from New York were to 
enter Iowa and started destroying people's cornfields. I mean, 
those groups of cops would take incoming fire. That is what we 
are doing in Afghanistan. I've been on one of these eradication 
missions. A group of Kabul cops goes down to a place like 
Oruzgan, destroys the poppy fields. Whose poppy fields are 
destroyed? Not the guy with the--who is really the drug lord. 
It is the poor guy who can't pay the bribe to make sure--so 
eradication first policy on--I mean, the committee can 
certainly look into it in more detail--I think is utterly 
crazy. It is the most counterproductive thing we are doing. A 
third of Afghanistan's GDP is derived from this. Millions of 
people derive their income from this, particularly in the areas 
where, as you say, American sons and daughters are going to be 
going and putting themselves in harm's way.
    We really need to be rethinking this. General David 
O'Bonner, I think, has said the smartest thing about it: What 
is the mark of a successful drug policy in Afghanistan? It is 
not the number of hectares of poppy destroyed, it is the number 
of hectares of other crops that are planted. That is the right 
way to be looking at it. We need to rethink and reframe the way 
we are doing our drug policy.
    Mr. Lynch. Mr. Bergen.
    Mr. Pillar. I agree absolutely with Peter. This is where 
the infrastructure reconstruction comes into play too, because 
part of the reason it is difficult for Afghan agriculturists to 
make a living growing pomegranates rather than poppy is the 
insufficiency of the roads, the transportation. Poppy has the 
extreme attraction of being a low weight, low volume but high 
profit margin crop which simply can't be matched given the 
existing infrastructure and economic development by other 
crops.
    Mr. Lynch. Is----
    Mr. Tierney. Thank you, Mr. Lynch.
    Mr. Lynch. Okay. Thank you, Mr. Chairman.
    Mr. Tierney. Thank you, Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman.
    Dr. Pillar with your background in the Agency, you had the 
opportunity to work obviously with the Intelligence Community 
somewhat with the military and somewhat with the State 
Department; would that be fair to say?
    Mr. Pillar. Yes.
    Mr. Issa. So just for the record, if I go to the State 
Department, they are going to always have a diplomatic answer 
that solves everything, you know, watch and engage and talk. If 
I go to the Intelligence Community, they are going to say 
watch, check and do things clandestinely. And if I go to the 
military, they are going to say we can fix the problem, we just 
need boots on the ground. Is that fair to say that in every 
conflict, that is predictable from each of those three pillars 
of our national defense?
    Mr. Pillar. Well, I think many years ago, Lord Salisbury 
had a quotation that was sort of a paraphrase of what you just 
said, Mr. Issa, but it is probably not entirely fair in that I 
think the professionals in each of those parts of the 
professional services and the executive branch know full well 
that they aren't the whole part of the story. Our military 
knows full well that there is an economic and diplomatic side, 
the intelligence people are there to serve the others there, 
so----
    Mr. Issa. Sure. I asked a rhetorical question for this 
reason. You mentioned just in response to a question that the 
image on the ground was that with our military attacks or 
agency attacks that we viewed their lives as cheap. In other 
words that--that they had a down side for every up side. We are 
breaking up the leadership, but at the same time, we're 
demonstrating that their lives are cheap and these raids come 
from the sky and kill without the so-called honor of standing 
there and being shot back at. Fair assessment or fair 
paraphrasing?
    Mr. Pillar. Yes. And I think that's reflected in the sorts 
of things as the poll result that Peter Bergen cited a couple 
minutes ago.
    Mr. Issa. Well, I would like to use your combined intellect 
of, I don't know, 600 points or so, to ask a question, a bigger 
question, because I think this was originally the Russians or 
the British war, then it was the Russians war and Soviets war, 
now I guess it's our war. The last time when the Soviets were 
in, it was the cold war and we picked the other side, but we 
didn't pick it because we wanted to help the Afghans we picked 
it because we wanted to hurt the Soviets, that's fair to say. 
By all of you, the head shaking tells me I'm on the right 
track.
    Aren't we fairly in a cold war primarily with Iran with 
Russia as a satellite player? And if we are in a cold war with 
Iran, then should we view Afghanistan through who is our real 
enemy, who is our real friend, what do we have to defeat in 
order to win this long conflict. And the same could be said if 
you were here talking about Hamas's activity in Gaza or 
Hezbollah's activity in Lebanon. I would pose almost the same 
question.
    If all of that is true, then how do we, or do we change our 
direction in a way that causes us to be seen as reluctant to go 
to war, reluctant to kill, believers that, in fact, we engage 
only when we have to and only to the extent we have to. So I'm 
setting up that stage to say is our National interest perhaps 
deal with Iran and settling that, dealing with perhaps Russia's 
support in a cold war way and in a great--to a great extent 
isn't the lack of world support in dealing with Afghanistan the 
result that there is a side that's on one side and therefore 
there is a side on another side?
    Mr. Pillar. Well, I think what we have to do, Mr. Issa, is 
not reduce things to a strictly red and white, green and white 
cold war kind of thing. The lines of conflict are more complex 
than that. And I think your mentioning Iran, this is the first 
time it came into this hearing, it is very appropriate you 
should raise it, because Iran and the United States actually 
have some parallel interest in Afghanistan as was demonstrated 
in the wake of our ouster of the Taliban with Operation 
Enduring Freedom and the diplomatic work that was done lead by 
Ambassador Dobbins with a lot of Iranian help in the bond 
process back in late 2001 to start the political reconstruction 
process that led to the erection of the Karzai government.
    Yes, we have conflicting interest, but we have a lot of 
parallel and conversion interest, particularly in this country 
we're talking about today, Afghanistan.
    Mr. Issa. Mr. Bergen.
    Mr. Bergen. I think there is one area of common interest in 
particular that we have with Iran which is the drug problem. 
Iran has the highest proportion of heroine users in the world. 
And you can imagine as there were baby steps taken to normalize 
relations with Iran that that might be one the first issues 
where there is some commonality where we both have the same 
strategic interest about the drug problem in Afghanistan.
    Mr. Issa. Thank you, Mr. Chairman.
    Mr. Tierney. Thank you. Mr. McHenry, you're recognized for 
5 minutes.
    Mr. McHenry. Thank you, Mr. Chairman. And thank your for 
your leadership on this issue. Two years ago, we traveled 
together to Pakistan and Afghanistan and you raised those same 
issues then that I think are coming to light now and I 
appreciate it.
    We've got--obviously we are assessing the threat situation 
currently, but we also have an outline that's becoming more and 
more specific about President Obama's new direction and the 
policy changes in terms of our actions, in terms of troop 
levels and where those troops will be located in Afghanistan. 
And we're reading about outposts that we're going to have more 
forward operating basis or outposts in the east and the south. 
And I wanted to get your perspective, all three of you, your 
perspective on these outposts.
    You know, Chairman Tierney was able to organize a trip to 
just a very similar outpost that's being described now, it's 
going to be quite prevalent along the border in the east and 
the south and so I have an idea of what that looks like. But I 
want to know the security ramifications for this, whether or 
not you think it's a good idea, the appropriate idea, the best 
way in order to get ahold of this situation. We'll start with 
Mr. Bergen.
    Mr. Bergen. Thank you very much, sir. I've been on a number 
of these small forward operating bases. I mean to give you an 
example, one in Zabul where 35 American soldiers, no 
electricity, no water, I mean nothing. If you're going to 
extend security to the population, you're going to have to do 
this. You are either not going to extend security to the 
population and secure the main cities or you're going--80 
percent of Afghans don't live in the cities. So this is, I 
think, the only way to guarantee extending security. It is 
going to be very expensive in blood and treasure, I imagine.
    Mr. McHenry. Mr. White.
    Mr. White. I agree, I think it is essential. I would go 
back to the question that I asked earlier, where is the 
emphasis going to be? Is it going to be on securing major urban 
areas, is it going to be on village areas? And I would also 
make a parallel I think a useful parallel to what we have seen 
the Pakistani government try to do over the past few months in 
the Swat Valley in northern Pakistan, where they essentially 
were regularly able to clear areas with their military, but 
then they always returned to sort of a PRT sort of location in 
an urban area, and the militants would just filter back into 
the villages. And their inability to forward deploy, to stay 
overnight in places and to actually gather intelligence and 
work on the front lines made it practically impossible for them 
to secure what was their own territory in an environment where 
there is actually quite a lot of support for the Pakistani 
government.
    And I think that that same dynamic is in play, but even 
more complicated in Afghanistan whether it is Afghan national 
troops or U.S. troops that the forward deployment is absolutely 
essential if they are going to actually secure the population.
    Mr. McHenry. Mr. Pillar.
    Mr. Pillar. I agree with my colleagues if we were going to 
do counterinsurgency and do it seriously, I think this is an 
essential part of it.
    Mr. McHenry. Mr. White, you touched on the provincial 
reconstruction teams. Are we doing enough in terms of utilizing 
provincial reconstruction teams? And if not, what can we do to 
improve them and make them much more effective?
    Mr. White. I'm actually going to defer to my colleagues on 
that and their expertise. I think they have spent more time 
there.
    Mr. McHenry. Mr. Bergen.
    Mr. Bergen. Afghanistan was the most under--underresourced 
post World War II reconstruction effort the United States has 
ever engaged in, both in terms of boots on the ground and money 
spent. So the more that we can do the better now.
    Mr. McHenry. That's the shortest, best answer I've heard. 
Mr. Pillar, do you want to try to improve it?
    Mr. Pillar. I--I can't improve on that sir, no.
    Mr. McHenry. And again, just in terms of our approach here, 
you do think that the forward operating bases more engaged in 
sort of sparsely populated areas, but where insurgents are 
active, is the model similar to Iraq? Because in many ways, 
there are larger population centers that we are holding in Iraq 
as the model for these operating bases being engaged in the 
neighborhood. Is it much more complex because of how remote 
those areas are, Mr. Bergen?
    Mr. Bergen. The short answer is yes, I'm not a military 
expert, but I will say one thing that the committee is in a 
position to order, or at least--which is we need to secure the 
Kabul to Kandahar Road, this is the most important road in the 
country. Securing Route Irish between Baghdad's airport and 
Baghdad City sent a really important symbol. If we can secure 
this road much harder than route Irish, it is much longer at 
300 miles. This is one of the things that we should really be 
focusing on. This is something that all Afghans will 
understand, hey, this road is back in business. This is the 
economic life line of the country. Right now, it would be 
suicidal for anybody in this room to take that road.
    Mr. McHenry. Thank you.
    Mr. Tierney. Thank you, Mr. McHenry. Mr. Welch, you're 
recognized for 5 minutes.
    Mr. Welch. Thank you, Mr. Chairman. This is a question to 
everyone really, I'll be brief but succinct. You have been 
terrific. I'm sorry I missed the early part of the hearing. Who 
is crossing the border from Pakistan to join the Afghan 
insurgency? Let's start with you, Mr. Bergen.
    Mr. Bergen. In terms of who's crossing the border, you 
know, I've interviewed a number people, a number of failed 
suicide bombers, probably the best definition of failure 
imaginable. But you now, they are all--they are Pakistani 
bumpkins, Pashtune country bumpkins who have been told they are 
going to get the 72 virgins. I--I mean, that's the foot 
soldier. But then, of course, you know, the leadership of the 
Taliban is in Pakistan, the Quetta Shura, the Bashara shura, 
Gulbadan head matcher, Hakani. The list goes on and on, they 
are all in Pakistan so--but they are not crossing, they are 
sending foot soldiers across. But--so the leadership is there 
and they are sending thousands the people across.
    And I think Mr. White raised a very good point which is a 
lot of this is about business. I mean, you know, they may be 
dressed up to some degree with the Taliban and religious 
justification, but they're controlling not just the drug trade 
but also all sorts of smuggling schemes etc., in a place with 
very, very high unemployment. The Pakistani Taliban, the Afghan 
Taliban is often the only job you can get.
    Mr. Welch. Do the other gentleman agree with that?
    Mr. Pillar. Yes.
    Mr. Welch. You know, we ran our recent trip with Chairman 
Tierney one of the things--in Afghanistan and Pakistan--one of 
the things that seemed to be the biggest threat was the 
corruption in Afghanistan. I don't know if you've covered this, 
Mr. Chairman. I came in late. But we met some folks whose job 
in Afghanistan was to try to get business investment if you can 
believe that. And the big issue was corruption. And what they 
describe as two incidents that were pretty compelling, one is 
that if you wanted to get a driver's license in Kabul, you had 
to get the sign off of 21 different people and make a payment 
at each step of the way. If you're a trucker trying to deliver 
a load from the Iranian border to the other side of Afghanistan 
you got stopped 27 times on average. And they were excited 
because the average had gone down to something like 17, but 
these are by authorities.
    I'll start with you, Mr. Bergen, but if that is so much a 
part of the economy in Afghanistan, I mean there is essentially 
no economy, drugs and corruption. And that is--it seems as 
though that was as big a threat to the U.S. presence and 
success as anything else, because we end up being seen as 
supporting the Karzai government which is seen as either 
tolerating or endorsing corruption. So it makes me skeptical 
about our capacity to be militarily successful. So perhaps Mr. 
Bergen and others down the line can respond to that.
    Mr. Bergen. No doubt the corruption is an enormous issue. 
Transparency International judges Afghanistan to be basically 
running neck and neck with Somalia in terms of corruption. So 
of the 175 countries it surveys, I think Afghanistan is like 
172 in terms of corruption. It is an enormous issue. It--what 
to do about it is probably above my pay grade. I just you 
know--but I think the beginning is the U.S. Government does 
know the names of the druglords, and clearly that's a major 
part of the corruption going on, it is time to publish these 
names.
    Mr. Welch. Mr. Pillar and White.
    Mr. Pillar. No question that the corruption is a major 
factor in the loss of popular support for the Karzai 
government, even though most Afghans, I venture to say, would 
not want a return of the harsh kind of regime that the Taliban 
had prior to the fall of 2001, the Taliban had managed to 
exploit the resentment and disaffection with the Karzai 
government and corruption is probably the single biggest 
ingredient in that.
    Mr. Welch. Before, Mr. White, maybe you can take up this 
one, this is the dilemma that I experienced if you have a 
military strategy, trying to stabilize the society so civil--
civic institutions can buildup, but the civic institutions that 
we're, in effect, supporting are corrupt, then why is that not 
a dead end? And why does it not suggest that we should have a 
refined approach where our goal is to protect the American 
homeland and to rely more on intelligence and perhaps military 
tactical strikes where there is a high value target or an 
emerging base threat as opposed to an occupational force with 
the Nation building goal. That's the dilemma for me, anyway.
    And I will start with you, Mr. White. Do we have to face 
that as our choice?
    Mr. White. To some extent, I think we will. I think there 
has been and is a healthy reevaluation going on about our 
objectives in Afghan. But I think we also need to listen to 
those who say it's very difficult to pursue a pure 
counterterrorism objective without thinking in 
counterinsurgency sort of--sort of framework because you cannot 
get the kind of local intelligence you need, you cannot 
regularly disrupt the kind of havens as you need to from the 
air or with an occasional strike. It's very, very difficult and 
the actual presence of safe havens on the ground is something 
that requires state presence, it's something that requires 
building institutional capacity, and over the long term, have 
the legitimate state and I'm sympathetic to that argument.
    Mr. Tierney. Thank you, Mr. Welch.
    Mr. Welch. Thank you, Mr. Tierney.
    Mr. Tierney. Mr. Burton, you are recognized for 5 minutes.
    Mr. Burton. Thank you, Mr. Chairman. I won't take that 
long. I just--I got here a little bit late so I apologize if 
I'm being redundant with this question, but in Iraq, we had 
substantially more troops and it took a considerable length of 
time for us to stabilize that country and to train the troops 
so they could take care of the problem themselves. And 
President Obama is going to bring our troops home relatively 
soon because of the transition to the Iraqi troops.
    And I know you don't have a crystal ball, but Afghanistan 
is a much larger country, it's--the terrain is much different 
and this guerilla war that's being fought by the Taliban and 
its fellow travelers appears to be a more difficult situation 
than we had in Iraq. So based upon this information, how many 
troops, I know Murtha said we need 600,000, but how many troops 
and how long do you anticipate we'll have to stay there and 
will always--will we have to have a permanent, a permanent 
number of troops there like we have in Korea and Japan and 
elsewhere to augment the Afghani forces once they're ready to 
take up the slack.
    Mr. Pillar. Well, Mr. Burton----
    Mr. Burton. You have to speak up.
    Mr. Pillar [continuing]. I think we did address it a little 
bit earlier, perhaps before you were here. But the one comment 
I alluded earlier was General McNeill, one of our former 
commanders of the International Security Assistance Force and 
he was speaking of several hundred thousand, I think he 
mentioned 400,000. And also he had a timeframe, I can't 
remember exactly what it was but it was in the, you know, 
several years. I don't--successful counterinsurgency does not 
have to mean, shouldn't mean a permanent presence. I mean, the 
kind of thing we had in Japan and Korea is because of other 
things having to do with you know interstate threats. But 
suffice it to say, it's in the hundreds of thousands and 
multiple years, exactly how many it would be hard to say if 
full successful counterinsurgency was to be undertaken in 
Afghanistan. Against the background of all the factors that you 
appropriately mentioned, size, terrain and so on.
    Mr. Bergen. Can I add to that? There is a big difference 
between Afghanistan and Iraq, which is, support for 
international forces in Afghanistan is very, very high. The 
idea was that Afghanistan was going to be the graveyard of 
Empires and we would be greeted with flowers in Iraq and it was 
exactly the reverse. Afghans wanted us to be there at very, 
very high levels. I can't think of a single Muslim nation which 
in 2006 had a more favorable view of the United States, 85 
percent favorable. The numbers have dropped to 47 percent today 
in terms of favorable views of the United States. That's still 
half the population that's basically in favor of us being 
there. That's better than Iraq ever was even at the height of 
the early stages of the occupation. So the center of gravity in 
any insurgency is the population, the population is still at 
least half in our favor.
    And one other data point which is important, when we 
invaded Iraq 4 million Afgh--4 million Iraqis left the--either 
left the country or were displaced internally. Four million 
Afghans have returned to Afghanistan since 9/11. People don't 
vote with their feet unless think there is a future there. So, 
you were completely right about the problems, but there are 
also some significant factors in our favor suggesting a 
possible outcome which will--to all our liking.
    Mr. Pillar. If I may just add to that, those are all very 
important points that Peter Bergen made, but related to the 
question of greater international support is something that 
hasn't yet come up in this hearing and that is the role of our 
NATO allies. And as the Members are well aware this has been a 
rather big issue between us and our allies with regard to the 
size of their contribution and what conditions or lack of 
conditions are placed on their troops that are there.
    Secretary Gates and others, of course, have been working 
hard on this. But if you are talking about a long-term 
counterinsurgency this is another dimension despite the--as 
Peter accurately points out, the greater degree of 
international support for the effort. That's another 
consideration that has to be brought to bear.
    Mr. White. I would say briefly that in comparison with 
Iraq, I think that the number of troops required to do the same 
amount of work in Afghanistan will, in many ways, be higher for 
any given territory, not only because of the development 
environment in Afghanistan, but because the difference in the 
travel structure which is very pronounced. And in Iraq and in 
places it was possible to get a few big men on board and to 
negotiate on that basis. And that is very, very difficult to do 
in the Pashtun areas, both the Pakistani tribal areas and in 
Afghan. Because a leader is only the first among equals and 
there are a number of shifting alliances that make it very 
difficult to make deals with large blocks at one time. I think 
that's going to be an important factor.
    Mr. Tierney. Thank you. Mr. White, I'm aware that you need 
to be out of here by 11:40 or sooner and that you are going to 
walk with your feet, or vote with your feet and that's fine. So 
whenever you feel you have to depart please go please go with 
our appreciation for your contributions here today and don't 
hesitate at all. We are very grateful that you were able to 
spend time with us. I think we are going to spend a few more 
moments here if that's fine with our witnesses on that and do 
another round.
    Let me start by saying there is one issue I think we all 
think that if anything is going to be resolved in Afghanistan 
it requires something to be resolved in Pakistan, that's where 
the al Qaeda and the al Qaeda affiliate leadership is, and they 
are, as Mr. Bergen said, sending people over into Afghanistan, 
but also presumably sending people to London and Madrid and 
elsewhere.
    In Pakistan, we seem to have a very difficult time focusing 
all of the players who are leaders in the Pakistani government 
and military on recognizing that strategically their threat at 
the current moment is not necessarily India but is, in fact, 
the existential threat of terror and Taliban and al Qaeda 
inwardly to them as well.
    Can you envision a way that the United States aid to 
Pakistan be conditioned on certain benchmarks or metrics or 
whatever so that we can say that if certain things don't 
improve maybe the funding won't continue going because without 
continue going because without resolving that problem we can't 
really resolve Afghanistan. Dr. Pillar.
    Mr. Pillar. I can envision it. It would be difficult to 
achieve because although we might put explicit conditions on 
aid so far of the sort that you're talking about Mr. Chairman. 
To be quite blunt, the Pakistanis have played games with us in 
terms of making perhaps more of a show of going after elements 
we are most concerned with in the northwest, which is not to 
say that they haven't done real operations and indeed have 
incurred substantial casualties. But they have then brought 
things to a halt and it breached these various agreements and 
truces, whether it is with the people in Swat or elsewhere that 
have fallen short of our objectives.
    The Pakistanis are adept and playing these sorts of games 
with foreign governments, including us, in doing just enough to 
keep us satisfied while doing our things, that if we knew 
everything that was going on, with he would be dissatisfied 
with, this is the same thing that has taken place for years 
with regard to their activity in Kashmir and the cross border 
operations.
    Mr. Tierney. So I guess the question is why should we 
continue to fund them in fairly significant amounts if we are 
getting double speak and avoidance back?
    Mr. Pillar. It is a legitimate question, but as I suggested 
in my earlier comments, we have a variety of interests in 
Pakistan, many of them related to the ability of Pakistani 
state and their cooperation and their willingness and ability 
to cooperate on many other things besides just going after the 
Taliban and northwest.
    Mr. Tierney. You feel the same, Mr. White?
    Mr. White. Yeah, I do. I think that I know we talked about 
conditioning aid and I think those are very helpful 
discussions. But I think from the perspective of the U.S. 
Government what the United States can do is to more wisely 
target the aid that it is giving and the assistance that it is 
giving. That we can talk about what that looks like in 
development aid, but for example, in military aid, a lot our 
funding has either gone directly to the Pakistani government in 
a fairly unaccountable way or our military sales have gone 
through the FMF process in a way that is both rather slow and 
not always targeted to what our major joint objectives are.
    And so I think there is a real need to look at those 
mechanisms and say are there mechanisms by which, for example, 
the relevant combatant commander could sit down with the chief 
of Army staff and look at a set of equipment or set training 
that meets counterinsurgency objectives and so forth and then 
have a mechanism by which that equipment can move through the 
system in a way that is not just the Pakistanis sort of 
checking things off a list that they would like to see. So 
there are ways to target our assistance, and I think that that 
could address a good part of the problem that we've been 
facing.
    Mr. Tierney. Mr. Bergen, where did most of the opium grown 
in Afghanistan end up?
    Mr. Bergen. In Europe, I mean 95 percent of it.
    Mr. Tierney. Europe. And some in Iran?
    Mr. Bergen. And some to Iran and I know central Asia, but I 
mean terms in west, mostly Europe.
    Mr. Tierney. And besides the United States, who else is 
interested in the stability of the south Asia region----
    Mr. Bergen. I mean, United Kingdom, NADAR, NATO allies.
    Mr. Tierney. India, Iran.
    Mr. Bergen. You have multiple people trying.
    Mr. Tierney. Is it striking to any of you that we've had so 
very little effort in engaging all of those parties in some 
sort of contact effort? We have done it at margin levels in 
term of money, but in terms of really working with those people 
and trying to come up with some strategic answer to this, is it 
striking at all that there seems to be a paucity of effort 
there?
    Mr. Bergen. Indeed, but I believe Ambassador Holbrook will 
be changing that.
    Mr. White. And that has been striking to me. I think it is 
particularly important to engage the gulf States because they 
have an enormous influence in Pakistan because of their 
financial position, even though it has been recently weakened 
somewhat. And there is a tremendous amount of transport--
transit by the Pashtun population in Pakistan and Afghanistan 
through the gulf states. So I think that's--those are very 
important players to engage.
    Mr. Pillar. I think you've correctly identified a possible 
missed opportunity, Mr. Chairman. As it relates, for example, 
to the central Asian states, which have ideas about energy 
resources being exported through Afghan and Pakistan.
    Mr. Tierney. Thank you very much. Mr. Flake.
    Mr. Flake. Mr. Bergen, you mentioned the necessity to 
ensure that the elections are--that we have sufficient security 
for the elections and--is reason enough, I guess, to send 
troops now before we have an overall plan, we at least need 
that. Are 17,000 sufficient to help provide the necessary 
security? And is that--from your knowledge, do we have that in 
mind in terms of deployment of a lot of those 17,000. My 
understanding is they are going to specific areas and are they 
going to need to be deployed further out or will we need 
additional resources to make sure that election goes off as 
well as it can?
    Mr. Bergen. I would make two comments. I mean, Iraq in 2005 
was far more violent than Afghanistan is in 2009, and the 
United States was able to secure that election. So I do not 
doubt that for 1 day we can secure the whole country so that 
there is a successful election. Whether those troops are going 
in terms of their missions, obviously, I'm not privy to that 
kind of information, but the area where you need to secure is 
the south. The north is not an issue, and that is, of course, 
where these soldiers are going. So I am presuming that two 
birds will be killed with one stone in terms of both securing 
the south and also securing the election date.
    Mr. Flake. Just further on the election, obviously we're a 
little less excited about another 4 years of Karzai, but is 
there any other viable option at this point in your view?
    Mr. Bergen. That is a good question. He has a huge 
incumbency advantage. You know, Karzai won the last election 
with 55 percent of the vote against a dozen other candidates, 
and I don't need to tell the politicians here that is a pretty 
successful outcome. It is better than Obama did against one 
serious challenger in the recent Presidential. So he is still a 
popular guy. And I think the maneuvers that he's been making 
with this election are actually rather skillful. I mean, he 
completely wrong-footed his opponents by saying we might do it 
earlier. They can't organize themselves. He--so I think, you 
know, we will have a second Presidential term with President 
Karzai who has been--you know, the idea that he is mayor of 
Kabul I've always been suspicious of. He's been pretty adept 
about maneuvering of people out of office who are potential 
threats. He is quite an adept politician. Of course, you've met 
him so you can make your own judgment.
    Mr. Flake. Mr. White, do you agree?
    Mr. White. I do, I do.
    Mr. Flake. Mr. Pillar.
    Mr. Pillar. Yes.
    Mr. Flake. So another 4 years, as far as our policy, or 
what we are doing, we really have no choice but to move ahead 
and hope for the best in the second term, I guess.
    With regard to security in the election is that--do you 
also agree that that--where we face the situation here that is 
less volatile than it was in Iraq and we were able to succeed 
there. Do you foresee a successful election there?
    Mr. Pillar. I think Peter makes the basic point here that 
what we did in Iraq was lock down the country for a day. And I 
have confidence as he did that we can do it in Afghanistan too, 
but that's still just a day.
    Mr. White. I think it's probably possible, but 
exceptionally difficult. I recently have been an observer in 
elections in Bangladesh, and in Pakistan last year, and even in 
those environments in the rural areas it is very, very 
difficult to provide security. And the best bet the government 
can usually provide is--in many of those countries is a lone 
police officer with a 1950's rifle who is falling asleep by the 
side of the polling station. So it's possible, but I think we 
have to keep our expectations very low.
    Mr. Flake. Mr. Pillar, at this point, there are no 
significant blocks of people or groups who have said that they 
are not going to participate.
    Mr. Pillar. Could you repeat the question?
    Mr. Flake. In the election, in the election. Are there 
significant blocks that are threatened to boycott the election.
    Mr. Pillar. Not that I'm aware of. But Peter probably is 
better able to answer that question than I.
    Mr. White. I think after Karzai's posturing yesterday, 
Ashraf Ghani and others said they couldn't participate in an 
election that was held on the spring timetable, but that's 
still posturing at this point. And that hasn't sorted itself 
out.
    Mr. Flake. And in the end you expect, Mr. Bergen, all 
significant blocks to participate?
    Mr. Bergen. I do. You know, the last time there was a 
turnout of 70 percent in the United States was in 1900. There 
was a 70 percent turnout in the 2004 election, it went very, 
very smoothly. Obviously it is not going to go quite as 
smoothly this time, but I anticipate high turnout and 
relatively successful outcome.
    Mr. Flake. Thank you.
    Mr. Tierney. Thank you. Mr. Welch, you're recognized for 5 
minutes.
    Mr. Welch. Thank you, Mr. Chairman. I want to go back to 
the cross-border effect and I will start again with you, Mr. 
Bergen, is the cross-border effect coming from Afghanistan as 
bad as the Afghan government portrays it?
    Mr. Bergen. I think that's a very important question. Let's 
do the thought experiment where there was not cross-border 
traffic. Afghanistan would still have a lot of problems, they 
would have the drug problem, they would have local Taliban. So 
RAND did a study of the 90 insurgencies since World War II. If 
you have a safe haven half the time of insurgents win, I mean 
it is a game changer. So the problem----
    Mr. Welch. What's the game changer?
    Mr. Bergen. The game changer is continuing to have a safe 
haven. Clearly that operates in the insurgents' favor. But if 
they didn't have the safe haven, the problems of the Taliban 
would not completely disappear. They wouldn't have commander 
control from across the border, but you would still have the 
drug trade and you would still have local Taliban. The problem 
would not go away. The Afghan government, you know, tends to be 
very critical of Pakistan, we know that, but they have their 
own problems.
    Mr. Flake. Okay. Mr. Pillar.
    Mr. Pillar. Well, I think when you hear President Karzai 
complaining mightily about the Pakistanis, it's--it's partly to 
deflect attention from the internal problems that we've been 
discussing, but the reality is that I agree totally with what 
Peter said.
    Mr. Welch. I want to talk a little bit about Lashkar-e-
Taiba--am I pronouncing that right? Can you just describe who 
they are and what threats they pose? You know, a lot of these 
names just kind of run over the surface and we get a little bit 
confused by it. And when we are too general it means that we 
don't get specific on practical responses. So Mr. Pillar.
    Mr. Pillar. Lashkar-e-Taiba or LT is an Islamist Pakistani 
group that has gotten, certainly in the past, and there is a 
question about how much it still has in the present cooperation 
and sponsorship from elements of the Pakistani government 
itself, which saw it as useful tool, particularly with regard 
to confronting the Indians in Kashmir and keeping an insurgency 
in Kashmir brewing.
    Since then and partly because of the pressure that our 
government has placed on the Pakistanis, not to do business 
with this group, which is, let's be quite blunt, a loathsome 
terrorist group that is appropriately on all of our terrorist 
lists, and it is appropriate for us to place such pressure on 
the Pakistanis. The official sponsorship is no longer there, 
the remaining question is to what degree there may be 
individuals or elements, particularly in the Pakistani military 
that may have some continued relationship with the group. But 
for any Pakistani military or civilian, they have to consider 
that Lashkar-e-Taiba is now doing things in Pakistan that have 
been as much of a problem as a resource. We have of course----
    Mr. Welch. That goes back to what Chairman Tierney was 
talking about earlier, where Pakistan has a threat, an 
existential threat from the terrorists and is starting to occur 
in its own boundaries.
    Mr. Pillar. It might not be an existential threat in the 
sense that we are going to see--we'll have a chance to see next 
year LT taking over the government and nuclear weapons, and 
that sort of thing. That's not going to happen. However, 
insofar as it becomes a preoccupation and a diversion for any 
Pakistani leader, it is an important thing for us. We have seen 
the Mumbai bombings and the very sophisticated attacks on 
Lahore yesterday and against the Sri Lankan cricket team. It is 
still a matter of speculation, there haven't been any claims of 
responsibility, but I would put LT at the top of the list of 
suspects as many Pakistanis are indeed doing today.
    Mr. Welch. Does their agenda, the LT agenda extend beyond 
its views on India-Pakistan relations in Kashmir?
    Mr. Pillar. They share the general ideology in many 
respects of bin Laden's al Qaeda, although operationally, they 
have been focused more on their region, on Kashmir and now in 
Pakistan itself.
    Just to speculate a bit more about yesterday's attack, if 
it was Lashkar-e-Taiba, and the question is why did they do it, 
my speculation would be to discredit and destabilize the 
civilian government lead by Zardari. Perhaps even in the hope 
that a new military government might put more continued 
sympathizers to them and their cause back in power, as opposed 
to Zardari and the Pakistan people's party.
    Mr. Welch. Thank you. Mr. Bergen, who makes up the 
insurgency in the Swat Valley?
    Mr. Bergen. Well, it's a Pakistani Taliban. I mean that's--
I'm not--I wish Mr. White was still here, he would have a much 
more sophisticated answer, but I mean it's essentially the 
Pakistani Taliban.
    Mr. Welch. And their goals are what as you see it?
    Mr. Bergen. Well, it's a Sharia law. It's a replica of what 
happened in Afghanistan pre 9/11, essentially.
    Mr. Welch. And President Zadari, as you know, indicated 
that he thought the west should have a greater sophisticated 
understanding of the goals with respect to the imposition of 
Sharia law. What's your take on that?
    Mr. Bergen. If you ask almost any Muslim are you in favor 
of Sharia law, most Muslims will say yes, because it's--in 
principle the details of what that Sharia law might look like. 
Is it Taliban or is it something much, much, much less onerous? 
So I mean, there is nothing necessarily wrong with people who 
want to install some form of Sharia law. It is a question of 
degree.
    The other issue that Swat raises is--is doing these kinds 
of deals at all a good thing. Now obviously Pakistan makes its 
own judgments about this, but if we're prepared to do side 
deals with the Afghanistan Taliban, why can't the Pakistani 
government do deals with Pakistani Taliban in its own 
territory. That's something they need to think about.
    Mr. Welch. But they can if they want to, right?
    Mr. Bergen. Well, I mean, obviously they can. But I mean, 
we tend to be very critical of these fields. I think 
appropriately so, because often the deals basically give the 
breathing room for the militants to regroup. You have to 
understand the Pakistani government does these deals, I think, 
because they have no other options. Usually when they go into 
these areas it is a military defeat, the much-wanted Pakistani 
Army has never really won any kind of significant war it has 
been involved in. And it is not winning a war against the 
insurgency on its western and northern borders. And so these 
peace deals are certification of failure than anything else.
    Mr. Pillar. A couple of other relevant points, with one the 
Pakistani military is not trained, equipped or organized to do 
counterinsurgency in the northwest, they are trained equipped 
and organized to conduct armored battles against the Indians 
along their border.
    And second, a lot of areas we talked about, the Pakistani 
central government basically has never controlled it, that's 
certainly true of the Sharia.
    Mr. Welch. It's a very small percentage of the 170 million 
or so people in Pakistan, right?
    Mr. Pillar. That's correct.
    Mr. Welch. What's the population out there?
    Mr. Bergen. 3 million in FATA.
    Mr. Welch. So how in the world do we control that, it is 
pretty mountainous out there. There is a level of presumption 
in a lot of our discussions about our capacity to affect what 
is, I guess, extraordinarily rural, extraordinarily 
decentralized area of the world where there is some potential, 
is the potential of a threat to our country.
    Mr. Pillar. I think that's a fair observation, and on the 
Pakistani end, it's not a question of willingness or 
capability, it is a little bit of both, and a lot of 
capability. We like to think of it more as well, the Pakistanis 
ought to do more and they should do more. Well, that's probably 
true, but there is a large capability question as well. The one 
other point if I could just add Mr. Welch, to get on the table 
about the Pakistani Taliban and the original question to Peter 
is when we talk about the Pakistan Taliban we are not talking 
about a single unified group. We are talking about a number of 
elements particularly in the FATA, each of which independently 
control chunks of it. Masoud and others have pieces of it, and 
sometimes there have been conflicting and contending among 
themselves.
    Mr. Welch. Well, is it your view that those various 
elements in the FATA region have as a goal more autonomy in 
that region or did they want to take over the Pakistani 
government?
    Mr. Pillar. Oh, I think it is much more the former, to 
maintain and solidify their autonomy. And I think most of them 
are smart enough to realize they aren't close to taking over 
Pakistan.
    Mr. Welch. All right. Thank you, Mr. Chairman.
    Mr. Tierney. Thank you Mr. Welch. And I thank both our 
witnesses here. I am still left with the question we started 
with, that if we were to get some sort of government stabilized 
in Afghanistan and get Pakistan to deal with their situation, 
that there would still be some ungoverned areas in both 
Afghanistan and Pakistan to which elements uncharitable to our 
interests would reside or they could go to Yemen and whatever--
and the questions are we going to keep sending in troops after 
troops after troops or do we have another way of dealing with 
this.
    I thank you for your contributions and all of the 
information that you shared with us today, it's certainly 
helpful. It is assistive to us to sort of focus our attention 
on this and decide as this country is about to embark on an 
expenditure of human and financial treasure as well. So thank 
you very much. Thank you Mr. Flake and this hearing is 
adjourned.
    [Whereupon, at 1:45 p.m., the subcommittee was adjourned.]
    [The prepared statement of Hon. Paul W. Hodes follows:]

    [GRAPHIC] [TIFF OMITTED] T1613.021
    
    [GRAPHIC] [TIFF OMITTED] T1613.022
    
                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
